             DEPARTMENT OF HEALTH AND HUMAN SERVICES                             Office of Inspector General
                                                                                  Office of Audit Services

                                                                                        REGION IV
                                                                            61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303
                                   OCT     8 2008



Report Number: A-04-07-07020

Rodney Woods, President & CEO
Blue Cross and Blue Shield of Tennessee
dba Riverbend GBA
730 Chestnut Street
Chattanooga, Tennessee 37402

Dear Mr. Woods:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (DIG), final report entitled "Review of High-Dollar Payments for
Inpatient and Outpatient Claims Processed by Riverbend Government Benefits
Administrator for Calendar Years 2004 and 2005." We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.c. § 552, as amended
by P. L. No. 104-231, DIG reports generally are made available to the public to the extent
the information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this
report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through e-mail at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-07-07020 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services, Region IV
Enclosure
Page 2 - Mr. Rodney Woods

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
rokcmora@cms.hhs.gov
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF HIGH-DOLLAR
PAYMENTS FOR INPATIENT AND
     OUTPATIENT CLAIMS
  PROCESSED BY RIVERBEND
   GOVERNMENT BENEFITS
ADMINISTRATOR FOR CALENDAR
    YEARS 2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-04-07-07020
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops und monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have pennanent kidney
disease. The Centers for Medicare & Medicaid Services, which administers the program,
contracts with fiscal intennediaries to administer Medicare Part A and some Part B claims. The
intennediaries' responsibilities include detennining costs and reimbursement amounts,
maintaining records, establishing controls, safeguarding against fraud and abuse, conducting
reviews and audits, and paying hospitals for services provided. Federal guidance requires
intennediaries to maintain adequate internal controls to prevent increased program costs and
erroneous or delayed payments.

To process hospitals' inpatient and outpatient claims, the intennediaries use the Fiscal
Intennediary Standard System as well as the Centers for Medicare & Medicaid Services'
Common Working File (CWF). The CWF can detect certain improper payments when
processing claims for prepayment validation.

Medicare guidance requires hospitals to bill services accurately, using proper Health Care
Common Procedure Coding System codes, and reporting units of service specifying the number
of times the service or procedure was perfonned.

In calendar years (CY) 2004 and 2005, fiscal intennediaries processed and paid 5,125 inpatient
claims of $200,000 or more and 989 outpatient claims of $50,000 or more. We considered such
payments to be high-dollar payments. BlueCross BlueShield of Tennessee Inc. doing business as
Riverbend Government Benefits Administrator (Riverbend) was a Medicare Part A intennediary
primarily serving Medicare hospitals in Tennessee and New Jersey and processed approximately
21 million claims during CYs 2004 and 2005. Of these 21 million claims, only 223 inpatient and
83 outpatient claims resulted in high-dollar payments.

OBJECTIVE

Our objective was to detennine whether high-dollar Medicare payments that Riverbend made to
hospitals for inpatient and outpatient services were appropriate.

SUMMARY OF FINDINGS

Most of the high-dollar Medicare payments were appropriate. During CYs 2004 and 2005,
Riverbend made 306 high-dollar payments for inpatient and outpatient seryices. Our analysis
indicated that, at the start of our fieldwork in June of 2007:

   •   One-hundred-sixty of the payments were correct, as initially paid.

   •   Forty-six of the payments were incorrect as initially paid; however, Riverbend identified
       the overpayments and the hospitals had refunded the $5,524,122 in overpayments.



                                                1
   •   One hundred of the payments were incorrect, and the hospitals had not refunded the
       $4,910,063 in overpayments.

Riverbend had controls in place for high-dollar charges during our audit period, which
contributed to the number of correct payments it processed. However, Riverbend made some
inappropriate payments because neither its system nor the CWF had sufficient edits in place
during CYs 2004 or 2005 to detect billing errors related to Health Care Common Procedure
Coding System codes and units of service.

RECOMMENDATION

We recommend that Riverbend recover the $4,910,063 in identified overpayments.

RIVERBEND COMMENTS

In written comments, Riverbend agreed with the findings and recommendation in our draft
report. Riverbend stated that it had updated its internal procedures to base high-dollar claims
review on claims reimbursements rather than on claims charges of $1 million or more.
Riverbend also stated that of the 100 identified overpayments, providers corrected 89 claims and
Riverbend cancelled the remaining 11 claims to recoup the overpayments. In addition,
Riverbend would review claims paid after the time period covered by the audit. Riverbend's
comments are included in their entirety as the Appendix.




                                                11
                                TABLE OF CONTENTS




INTRODUCTION                                        1

  BACKGROUND                                        1
    Fiscal Intennediary Responsibilities            1
    Claims for Inpatient and Outpatient Services    1
    Riverbend                                       1

  OBJECTIVE, SCOPE, AND METHODOLOGY                 2
    Objective                                       2
    Scope                                           2
    Methodology                                     2

FINDINGS AND RECOMMENDATION                         .3

  FEDERAL REQUIREMENTS                              3

  INAPPROPRIATE HIGH-DOLLAR PAYMENTS                .4

  CAUSES OF OVERPAYMENTS                            5

  RECOMMENDATION                                    5

  RIVERBEND COMMENTS                                 5

APPENDIX

  RIVERBEND COMMENTS




                                           111
                                   INTRODUCTION

BACKGROUND

Pursuant to Title XVIII ofthe Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Fiscal Intermediary Responsibilities

CMS contracts with fiscal intermediaries to administer Medicare Part A and some Part B
claims. The intermediaries' responsibilities include determining costs and reimbursement
amounts, maintaining records, establishing controls, safeguarding against fraud and
abuse, conducting reviews and audits, and making payments to hospitals for services
provided. Federal guidance provides that intermediaries maintain adequate internal
controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments.

Claims for Inpatient and Outpatient Services

To process hospitals' inpatient and outpatient claims, the intermediaries use the Fiscal
Intermediary Standard System, as well as CMS's Common Working File (CWF). The
CWF can detect certain improper payments when processing claims for prepayment
validation.

Medicare guidance requires hospitals to bill services accurately, using proper Healthcare
Common Procedure Coding System (HCPCS) codes, and to report units of service
specifying the number of times the service or procedure was performed.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid 5,125
inpatient claims of $200,000 or more and 989 outpatient claims of $50,000 or more. We
considered such payments to be high-dollar payments.

Riverbend

During our audit period (CYs 2004 and 2005), BlueCross BlueShield of Tennessee Inc.
doing business as Riverbend Government Benefits Administrator (Riverbend) was a
Medicare Part A intermediary primarily serving Medicare hospitals in Tennessee and
New Jersey. Riverbend processed approximately 21 million claims during CYs 2004 and
2005. Ofthese 21 million claims, only 223 inpatient and 83 outpatient" claims resulted in
high-dollar payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to detennine whether high-dollar Medicare payments that Riverbend
made to hospitals for inpatient and outpatient services were appropriate.

Scope

We reviewed the 223 inpatient claims and the 83 outpatient claims Riverbend paid during
CYs 2004 and 2005. We limited our review of Riverbend's internal control structure to
those controls applicable to the 306 (223 inpatient and 83 outpatient) claims because our
objective did not require an understanding of all internal controls over claims submission
or claims processing. Our review allowed us to establish a reasonable assurance
regarding the authenticity and accuracy of the data obtained from the National Claims
History file, but we did not assess the completeness of the file. We did not perfonn or
request medical review on any of the 306 claims.

We conducted our fieldwork from June through December 2007 by working with
Riverbend, located in Chattanooga, Tennessee and hospitals in Tennessee, New Jersey,
and Mississippi that received high-dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS's National Claims History file to identify inpatient claims and
        outpatient claims with high-dollar Medicare payments;

   •    reviewed available CWF claims histories for high-dollar inpatient and outpatient
        claims to detennine whether those claims had been canceled and superseded by a
        revised claim or whether the payments remained outstanding at the time of our
        fieldwork;

   •    analyzed claims that were reviewed by Riverbend to detennine whether more
        infonnation was needed from the hospitals;

    •   contacted the hospitals associated with the high-dollar payments to detennine
        whether (1) the units of service shown on the claims were correct and, ifnot, why
        the claims were billed in error and (2) the hospitals agreed that a refund was
        appropriate; and

    •   validated with Riverbend that the claims were billed in error, overpayments
        occurred, and refunds were appropriate.


                                            2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.ur audit
objectives.

                       FINDINGS AND RECOMMENDATION

Most of the high-dollar Medicare payments were appropriate. During CYs 2004 and
2005, Riverbend made 306 high-dollar payments for inpatient and outpatient services.
Our analysis indicated that, at the start of our fieldwork in June of2007:

   •   One-hundred-sixty ofthe payments were correct as initially paid.

   •   Forty-six of the payments were incorrect as initially paid; however, Riverbend
       identified the overpayments and the hospitals had refunded the $5,524,122 in
       overpayments.

   •   One hundred of the payments were incorrect, and the hospitals had not refunded
       the $4,910,063 in overpayments.

Riverbend had controls in place for high-dollar charges during our audit period, which
contributed to the number of correct payments it processed. However, Riverbend made
some inappropriate payments because neither its system nor the CWF had sufficient edits
in place during CYs 2004 or 2005 to detect billing errors related to HCPCS codes and
units of service.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986 requires hospitals to
report claims for outpatient services using coding from the HCPCS. The Medicare
"Hospital Manual," section 400 states: "Bill only for services provided. If your system
initiates billing based on services ordered, you must confirm that the service has been
provided before billing either the carrier or intermediary. Furthermore, section 462
states: "In order to be paid correctly and promptly, a bill must be completed accurately."

Also, section 3700 ofthe "Medicare Intermediary Manual" states: "It is essential that
you [the fiscal intermediary] maintain adequate internal controls over Title XVIII
[Medicare] automatic data processing systems to preclude increased program costs and
erroneous and/or delayed payments."




                                             3
INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Of the 306 high-dollar payments that Riverbend made to hospitals during CYs 2004 and
2005, 160 were appropriate. The remaining 146 payments (71 inpatient and 75
outpatient) totaling $10,434,185 were inappropriate. At the start of our fieldwork in June
2007, Riverbend had identified and refunded 46 overpayments (22 inpatient and 24
outpatient) totaling $5,524,122. One hundred overpayments (49 inpatient and 51
outpatient) totaling $4,910,063 remained outstanding.

  Claim       Correct      Number      Number       Refund       Improper     Overpayment
  Type         claim         of          of         Amount       Payments       Amount
             payments     Improper    Improper                     Not        Outstanding
                          Payments    Payments                   Refunded
                                      Refunded
Inpatient       152          71           22       $4,084,639       49         $1,600,613
Outpatient        8          75           24       $1,439,483        51        $3,309,450
Total           160          146          46       $5,524,122       100        $4,910,063

The following examples illustrate billing errors that hospitals made.

   •    Twelve hospitals overstated/understated the units of service billed due to
        inadequate controls and edits or employee errors, including lack of
        documentation. Riverbend overpaid a net of$I,584,386 to the 12 hospitals for 28
        claims.

   •    Three hospitals overstated the units of service billed for the drug Oxaliplatin by
        10 times more than the number of units actually delivered due to an error with the
        unit rate. As a result, Riverbend overpaid $1,423,921 to the three hospitals for 25
        claims.

    •   Five hospitals overstated the units of services billed due to computer interface
        billing system issues or employee errors. Riverbend overpaid $769,018 to the
        five hospitals for nine claims.

    •   Three hospitals overstated the units of service billed due to measuring the units of
        service in minutes or components rather than as one unit. As a result, Riverbend
        overpaid $587,426 to the three hospitals for nine claims.

    •   Three hospitals erroneously billed the wrong HCPCS. Riverbend overpaid
        $151,469 to the three hospitals for three claims.

CAUSES OF OVERPAYMENTS

Although Riverbend had both prepayment and postpayment controls in place, neither its
system nor the CWF had sufficient edits in place in CYs 2004 or 2005 to detect billing
errors related to HCPCS codes and units of services. Instead, CMS relied on providers to


                                               4
notify intermediaries of overpayments and on beneficiaries to review their "Medicare
Summary Notice" and disclose any provider overpayments. 1

On January 3,2006, subsequent to our audit period but prior to our fieldwork, eMS
required intermediaries to implement a Fiscal Intermediary Standard System edit to
suspend potentially excessive Medicare payments for prepayment review. This edit
suspends outpatient claims of $50,000 or more and requires intermediaries to contact
hospitals to determine the legitimacy of the claims.

RECOMMENDATION

We recommend that Riverbend recover the $4,910,063 in identified overpayments.

RIVERBEND COMMENTS

In written comments, Riverbend agreed with the findings and recommendation in our
draft report. Riverbend stated that it had updated its internal procedures to base high-
dollar claims review on claims reimbursements rather than on claims charges of
$1 million or more. Riverbend also stated that of the 100 identified overpayments,
providers corrected 89 claims and Riverbend cancelled the remaining 11 claims to recoup
the overpayments. In addition, Riverbend would review claims paid after the time period
covered by the audit. Riverbend's comments are included in their entirety as the
Appendix.




IThe fiscal intermediary sends a "Medicare Summary Notice" to the beneficiary after the provider files a
claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


                                                     5
APPENDIX
                                                                                                            APPENDIX
                                                                                                             Page 1 of2




                 CAlIS!                                                                             Medicare
_._.. .-... ._~~,I-'----------_.
                    www.cms.gov




            July 22, 2008


            Mr. Peter J. Barbera
            Office of Inspector General
            Office ofAudit Services
            RegionN
            61 Forsyth Street, S.W. Suite 3T41
            Atlanta, GA 30303


            RE: Report Number A-64-07-67020
                Review ofHigh-Dollflr Paymentsfor InJHItient and Outpatient Claims Processed by
                Riverbend Government BenejlJs Administratorfor Calendar Yem 2004 tmd 2005


            Dear Mr. Barbera:

            On bchaIfofRiverbend Government Benefits Administrator (Riverbend), I would like to thank
            the Office of Inspector General for the opportunity to comment on your findings. Within the
            context of the authority and funding made available to us as a contractor, Riverbend is
            committed to assisting the Centers for Medicare and Medicaid Services (CMS) in identifying and
            reducing the Medicare Program's vulnerability to reimbursements ofinappropriate claims for
            payments to providers. We consider the information contained in this review as important
            feedback that we will use in assessing our processes as part ofour continuous improvement
            commitment Our more specific comments to your fmdings ate reflected below.

            The overall issue identified during our review is that our interna1 review is based on billed
            charges ofone million dollars or greater. To improve our internal process and protect the
            Medicare Trust Fund, Riverbend has determined it will be most effective to base high-dollar
            claims review on claims reimbursement. Our internal procedures have been updated to reflect
            this change.

            As stated in the report, 306 claims with high dollar payments were initially reviewed. The
            majority ofthese claims were paid appropriately. One hundred claims were identified as
            potential overpayments; 86 have been corrected by the provider. There were 14 claims
            outstanding when the draft report was issued; three have been corrected by the provider.
            Riverbend has cancelled the remaining II claims to recoup the overpayments.




    .....                                             Riverbend Government Benefits Administrator
                                                 730 Chestnut Street. Chattanooga, Tennessee 37402-1790
                                                                 www.riverbendgba.com
                                                             ACMS Contracted Intermediary
                                                                                                       APPENDIX
                                                                                                        Page 2 of2




            c./Ws/                                                                  Medicare
                         •                                                           'Part A IntermedIary
         www.cms.gov

A-04·07.Q7020
Page 2


Riverbend will review claims paid after the time period covered by the audit. We will work with
providers to detennine if claims were billed appropriately and take necessary actions to recoup
any overpayments.

Ifyou have any questions or need additional information, you may contact me at (423) 535-4243
or via e-mail atiohn.hayes@r:~bagov.com.


Best Regards,

  ~~k.
John R. Hayes
ChiefOperating Officer
Riverbend Government Benefits Administrator




                                        Riverbend Government Benefits Administrator
                                   730 Chestnut Street, Chattanooga,Tennessee 37402·1790
                                                   www.riverbendgba.com
                                              ACMS Contracted Intermediary
